No. 20-1009
IN THE

Supreme Court of the United States
DAVID SHINN, et al.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ and BARRY LEE JONES,
Respondents.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE
I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 20th day of September, 2021, all parties required to be served have been served
copies of the Brief for The American Bar Association as Amicus Curiae Supporting
Respondents in this matter by overnight courier to the addresses below.
Counsel of Record for Petitioners
LACEY STOVER GARD
OFFICE OF THE ATTORNEY GENERAL
400 West Congress Street
Bldg. S-315
Tucson, AZ 85701
(520) 628-6654
lacey.gard@azag.gov

Counsel of Record for Respondents
ROBERT MARK LOEB
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15th Street, NW
Washington, DC 20005
(202) 339-8475
rloeb@orrick.com

ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800

